SCOTT C. PETERS
Direct 216 | 503-5080
speters@ohioedlaw.com

October 1, 2020
Via Electronic Filing
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543-0001
sharris@supremecourt.gov
ALBIN BAUER, II
DAVID S. HIRT

Re:

Jane Doe, et al. v. Jackson Local School District Board of Education, et
al., No. 20-320
Motion to Extend Time to Respond to Petition for Writ of Certiorari

KARRIE M. KALAIL
KRISTA KEIM

Dear Mr. Harris:

MARIA LIMBERT MARKAKIS
SHERRIE C. MASSEY
SCOTT C. PETERS
DANIEL R. SHISLER

OF COUNSEL:

Pursuant to Supreme Court Rule 30.4, Respondents Jackson Local School
District Board of Education, Bus Driver Jimmie Singleton, Building Principal
Susanne Waltman, Director of Transportation Harley Neftzer, Dean of Students
Michelle Krieg, and Guidance Counselor Tamara Neff respectfully move for
an extension of time for filing their response to Petitioners John and Jane Doe’s
Petition for Writ of Certiorari, until November 3, 2020.

JENNIFER A. ANTOON

The original deadline for Petitioners to file their Petition for Writ of Certiorari
was May 18, 2020. Given, however, the COVID-19 Pandemic, such deadline
was understandably extended to August 31, 2020, and Petitioners filed their
Petition for Writ of Certiorari on August 27, 2020 (which was subsequently
docketed on September 10, 2020).
Review of Petitioners’ Petition for Writ of Certiorari reveals numerous
arguments that were not raised or briefed to either the District Court for the
Northern District of Ohio or the Sixth Circuit Court of Appeals, including
specifically that (1) the Supreme Court has not determined the test to be utilized
in determining whether the State Created Danger theory applies; and (2) the
elements and factors for the State Created Danger Test are applied differently
by district and circuit courts throughout the United States. See, Petition for
Writ of Certiorari at 11-32.
In order to fully respond to Petitioners’ Petition for Writ of Certiorari,
Respondents must address the issues previously raised and argued by
p 216 | 503-5055
Petitioners and the additional arguments set forth in the Petition for Writ of
f 216 | 446-6032
Certiorari. Thus, Respondents request an additional twenty-one (21) days to
6480 Rockside Woods Blvd. South |
file their response. Respondents do not request this extension for purposes of
Suite 300
delay, but to give them adequate time to assess the legal issues in this matter
Cleveland, OH 44131-2222
and respond to same.
WWW.OHIOEDLAW.COM

Scott S. Harris
Clerk of the Court
October 1, 2020
Page 2
For the foregoing reasons, Respondents respectfully request that the Court grant
their request for a twenty-one (21) day extension until November 3, 2020, to
file a response to Petitioners’ Petition for Writ of Certiorari.
Respectfully submitted,

Scott C. Peters
Scott C. Peters
One of the Attorneys for Respondents
cc:

Laura L. Mills, Counsel for Petitioners

